APPENDIX

United States v. Saenz-Quintela,
Nos. 20-50771, 20-50778, and 20-50788
(5th Cir. Mar. 8, 2021) (per curiam)

Case: 20-50771

Document: 00515769733

Page: 1

Date Filed: 03/08/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

_____________

FILED
March 8, 2021

No. 20-50771
consolidated with
Nos. 20-50778, 20-50788
_____________

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Roque Saenz-Quintela,
Defendant—Appellant.
Appeals from the United States District Court
for the Western District of Texas
No. 4:19-CR-825-1
No. 7:10-CR-353-3
No. 7:09-CR-14-1
Before King, Smith, and Wilson, Circuit Judges.
Per Curiam:*
Roque Saenz-Quintela appeals his sentence for illegal reentry in violation of 8 U.S.C. § 1326. He also appeals the concomitant revocations of his

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this opinion should not be published and is not precedent except under the limited circumstances
set forth in 5th Circuit Rule 47.5.4.

Case: 20-50771

Document: 00515769733

Page: 2

Date Filed: 03/08/2021

No. 20-50771
No. 20-50778
No. 20-50788

supervised release related to his convictions of possession with intent to distribute 500 grams or more of cocaine, in violation of 21 U.S.C. § 841, and
conspiracy to distribute and possess with intent to distribute over 5 kilograms
of cocaine, in violation of § 841 and 21 U.S.C. § 846.
Raising one issue on appeal, Saenz-Quintela contends that the recidivism enhancement under § 1326(b) is unconstitutional in light of Apprendi v.
New Jersey, 530 U.S. 466 (2000), and subsequent decisions because it allows
a sentence above the otherwise applicable statutory maximum based on facts
that are neither alleged in the indictment nor found by a jury beyond a reasonable doubt. Saenz-Quintela concedes that that theory is foreclosed by
Almendarez-Torres v. United States, 523 U.S. 224, 226−27 (1998); he seeks to
preserve the issue for further review.
The government filed an unopposed motion for summary affirmance,
agreeing that the issue is foreclosed; in the alternative, the government
moved for an extension of time to file its brief. Saenz-Quintela concedes that
the sole issue is foreclosed by Almendarez-Torres. See United States v. Wallace, 759 F.3d 486, 497 (5th Cir. 2014); United States v. Pineda-Arrellano,
492 F.3d 624, 625−26 (5th Cir. 2007). Summary affirmance is therefore
appropriate. See Groendyke Transp., Inc. v. Davis, 406 F.2d 1158, 1162 (5th
Cir. 1969).
Although the appeals of Saenz-Quintela’s illegal-reentry conviction
and supervised release revocations were consolidated, he does not address
the revocations, so he has abandoned any challenge to the revocation or revocation sentence. See Yohey v. Collins, 985 F.2d 222, 224−25 (5th Cir. 1993).
Accordingly, the motion for summary affirmance is GRANTED, and
the judgments are AFFIRMED. The government’s alternative motion for
an extension of time is DENIED.

2

